<html>
<title> - NOMINATIONS HEARING</title>
<body><pre>[Senate Hearing 114-588]
[From the U.S. Government Publishing Office]











                                                        S. Hrg. 114-588

                          PENDING NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

         NOMINATIONS OF HON. PATRICK PIZZELLA, NOMINEE TO BE A
      MEMBER, FEDERAL LABOR RELATIONS AUTHORITY, JULIE H. BECKER,
        NOMINEE TO BE AN ASSOCIATE JUDGE, SUPERIOR COURT OF THE
         DISTRICT OF COLUMBIA, STEVEN N. BERK, NOMINEE TO BE AN
           ASSOCIATE JUDGE, SUPERIOR COURT OF THE DISTRICT OF
            COLUMBIA, AND ELIZABETH WINGO, NOMINEE TO BE AN
      ASSOCIATE JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                               __________

                             MARCH 2, 2016

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
       
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
        
        

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-989 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
        
        
        
        
        
        
        
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
                  Christopher R. Hixon, Chief Counsel
Gabrielle D'Adamo Singer, Deputy Chief Counsel for Governmental Affairs
  John D. Cuaderes, Staff Director, Subcommittee on Regulatory Affairs
                         and Federal Management
    Nathan R. Kaczmarer, Counsel, Subcommittee on Regulatory Affairs
                         and Federal Management
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
 Katherine C. Sybenga, Minority Chief Counsel for Governmental Affairs
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Carper...............................................     2
    Senator Ernst................................................    11
    Senator Heitkamp.............................................    13
    Senator Peters...............................................    16
Prepared statement:
    Senator Lankford.............................................    25
    Senator Carper...............................................    27

                               WITNESSES
                        Wednesday, March 2, 2016

Hon. Patrick Pizzella, Nominee to be a Member, Federal Labor 
  Relations Authority
    Testimony....................................................     4
    Prepared statement...........................................    33
    Biographical and financial information.......................    34
    Letter from the Office of Government Ethics..................    57
    Responses to post-hearing questions..........................    59
Julie H. Becker, Nominee to be an Associate Judge, Superior Court 
  of the District of Columbia
    Testimony....................................................     5
    Prepared statement...........................................    61
    Biographical and financial information.......................    62
    Responses to post-hearing questions..........................    98
Steven N. Berk, Nominee to be an Associate Judge, Superior Court 
  of the District of Columbia
    Testimony....................................................     6
    Prepared statement...........................................    99
    Biographical and financial information.......................   100
    Responses to post-hearing questions..........................   119
Elizabeth C. Wingo, Nominee to be an Associate Judge, Superior 
  Court of the District of Columbia
    Testimony....................................................     7
    Prepared statement...........................................   120
    Biographical and financial information.......................   121
    Responses to post-hearing questions..........................   155

                                APPENDIX

Statement submitted by the Honorable Paul Strauss, Shadow Senator 
  from the District of Columbia..................................    29

 
                          NOMINATIONS HEARING

                        WEDNESDAY, MARCH 2, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. James 
Lankford, presiding.
    Present: Senators Lankford, Ayotte, Ernst, Carper, 
Heitkamp, and Peters.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Good morning. Today we will consider the 
nominations of Ms. Julie Becker, Mr. Steven Berk, and Ms. 
Elizabeth Wingo for the position of Associate Judge on the 
Superior Court of the District of Columbia, as well as the 
nomination of Mr. Patrick Pizzella to be a member of the 
Federal Labor Relations Authority (FLRA). The Committee takes 
these nominations extremely seriously, so we are pleased to 
have strong nominees before us today.
    The Superior Court for the District of Columbia is a busy 
place, with more than 100,000 cases heard each year. I am proud 
to say that these three superior court nominees will mark the 
5th, 6th, and 7th that the Committee has considered in just the 
past year. This is more than triple the number of nominees who 
received hearings during the entire 113th Congress.
    Julie Becker is a native of Detroit, Michigan. She received 
her Bachelor of Arts degree from the University of Michigan and 
her law degree from Yale Law School. After graduation, Ms. 
Becker clerked for then-Judge Sonia Sotomayor on the Second 
Circuit Court of Appeals. Currently, Ms. Becker is a 
supervising attorney at Legal Aid where she has spent the past 
14 years.
    Steven Berk is originally from Chicago, Illinois. He 
received his undergraduate degree from Washington University in 
St. Louis. He has a Master's degree from the London School of 
Economics and a law degree from Boston College Law School. Mr. 
Berk has worked at the Securities and Exchange Commission 
(SEC), as an Assistant U.S. Attorney for the District of 
Columbia, and practiced at several prestigious law firms.
    Elizabeth Wingo is a native of Washington, D.C. She 
received her Bachelor of Arts from Dartmouth College and her 
law degree from Yale Law School. Following law school, she 
clerked for Judge T.S. Ellis in the Eastern District of 
Virginia. Ms. Wingo worked as a prosecutor at the U.S. 
Attorney's Office in the District of Columbia and for the 
District of Columbia's Attorney General's (AG) office before 
being appointed as a magistrate for the superior court in 2006.
    In addition to these impressive resumes, Ms. Becker, Mr. 
Berk, and Ms. Wingo possess the necessary legal skills and 
judgment to serve the District of Columbia.
    Mr. Pizzella is a native of Rochelle, New York. Rochelle?
    Mr. Pizzella. Rochelle.
    Senator Lankford. Rochelle. Thank you. Sorry, an Oklahoman 
trying to pronounce a New York name. I will just take it under 
advisement.
    He received his Bachelor of Arts degree from the University 
of South Carolina. After graduation, he served in a variety of 
government entities, including the General Services 
Administration (GSA), the Small Business Administration (SBA), 
the Department of Education, and the Department of Labor (DOL). 
In 2013, he was appointed to the Federal Labor Relations 
Authority.
    Committee staff has reached out to a variety of these 
nominees' colleagues and affiliates, who all spoke highly of 
them. You would be very impressed at the kind of things many 
people that were interviewed said about each of you.
    Committee staff has also had the opportunity to be able to 
interview Ms. Becker, Mr. Berk, Ms. Wingo, and Mr. Pizzella on 
an array of issues, ranging from notable cases to community 
service and pro bono work. They have thoughtfully and 
competently answered each of the questions to our satisfaction.
    To date, the Committee has found you to be qualified for 
the positions you have been nominated to, and I look forward to 
speaking with you a bit more today on your experience and 
accomplishments and how you intend to bring them to bear in a 
fair and impartial manner for the FLRA and the District of 
Columbia.
    With that, I would recognize the Ranking Member of the 
Committee, Senator Carper, for any opening statement he would 
like to make.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Senator Lankford. I want to thank 
you and I want to thank your staff for moving these nominations 
forward. We are, I think, fortunate--the people of the District 
of Columbia are fortunate to have men and women with the kind 
of credentials as the three of you bring, and they would 
probably be pleased about the other credentials for the fourth 
person, too.
    So thank you for moving these along. I like to say justice 
delayed is justice denied, and I am happy to see us moving 
these forward. I want to welcome not only the nominees but 
certainly members of their families that are here, including 
some very young ones. And we are happy that you have joined us, 
and we appreciate the parents who have raised at least one of 
these young people, and the children and the spouses that are 
willing to share your loved ones with the folks of this town.
    I want to start by welcome Patrick--is it Pizzella?
    Mr. Pizzella. Correct, sir.
    Senator Carper. Pizzella, OK. Who has been renominated to 
be a member, as we heard, of the Federal Labor Relations 
Authority. That is an Authority that plays an important role, 
as we know, in promoting constructive relationships between 
management and unions and, in turn, helps improve the 
effectiveness and the efficiency of the Federal Government.
    Mr. Pizzella has had a long career in public service, 
including the past few years serving in the position to which 
he has been now renominated, and we are grateful for his 
service and his willingness to continue to serve in this very 
important role.
    I am also pleased today that we are considering three 
nominees for the Superior Court of the District of Columbia. 
Julie Becker, Steven Berk, and Elizabeth Wingo all have very 
impressive backgrounds and legal careers that I believe make 
them extremely well qualified to serve as judges on the 
Superior Court. And we thank you all for joining us and for 
your willingness to serve.
    Before I close so we can hear from our nominees, I just 
want to note again how pleased I am that, in the last months of 
last year, the Senate finally moved to confirm nominees to fill 
four other vacancies on the D.C. Superior Court.
    That said, I thought it was shameful that it took us 2 
years to get two of those judges confirmed. But I am delighted 
that we have started to move nominees more quickly now, and I 
hope we can continue that momentum with these three nominees 
and others to the Superior Court as we go forward.
    Most Americans probably do not know that local judges in 
the District of Columbia must be confirmed by the U.S. Senate. 
I will have to admit I did not know that a number of years ago. 
But while these judgeships are comparable to the State courts 
that each of us is familiar with in our respective States, the 
D.C. Superior Court and Court of Appeals are operated by the 
Federal Government, not by the local government here. Their 
judges are appointed by the President from a slate of 
candidates thoroughly vetted and recommended by a nonpartisan 
nomination commission. They must then be confirmed by the 
Senate in order to serve 15-year terms.
    But these courts do not handle Federal matters. They are 
the local courts for the District of Columbia and hear cases 
related to local crimes and domestic and civil disputes between 
the people who live here in the District.
    I know of no other jurisdiction in our country that must 
have its local judges approved by the Congress. And no other 
State or locality is denied the representation here in the 
Senate that might help it pursue its priorities here, including 
nominations.
    Some have suggested that local D.C. judges should not have 
to go through Senate confirmation. I continue to believe that 
we ought to seriously consider that idea. But at a minimum, we 
should develop an expedited process for the confirmation of 
these local judges, as we have for some other positions that 
also have required Senate confirmation in the past but do not 
anymore.
    In the meantime, I hope that the Senate will move forward 
quickly on the nominees we are considering today. I believe 
that the people of the District of Columbia are fortunate that 
men and women as impressive as you are willing to go through a 
protracted nominating process, a great deal of scrutiny, and a 
full measure of uncertainty--which can stretch out in some 
cases for years--all for the possibility that they may one day 
serve on the bench in the District of Columbia. In this case, 
it has not taken that long. Mr. Chairman, to you and your staff 
and others who worked hard, and my staff, we thank you all.
    Senator Lankford. Thank you.
    It is the custom of this Committee to swear in all 
witnesses that appear before us, so if you do not mind, if you 
would please stand, raise your right hand. Do you swear that 
the testimony you are about to give before this Committee will 
be the truth, the whole truth, and nothing but the truth, so 
help you, God?
    Mr. Pizzella. I do.
    Ms. Becker. I do.
    Mr. Berk. I do.
    Ms. Wingo. I do.
    Senator Lankford. Thank you. You may be seated, and let the 
record reflect all the witnesses answered in the affirmative.
    We will all do opening statements on this. I would ask you 
a favor, that when you do your oral opening statements you all 
introduce your family. I have had the opportunity to be able to 
meet your family, but many people in this room have not. So if 
you could, when you make your opening statements, also 
introduce your family, that would be a great honor for everyone 
here in the room as well.
    Mr. Pizzella, since you are the experienced one on this, if 
you want to be able to make any opening statement--you have 
been through this rigor before--we would receive your oral 
testimony if you have any at this point.

TESTIMONY OF THE HONORABLE PATRICK PIZZELLA,\1\ NOMINEE TO BE A 
           MEMBER, FEDERAL LABOR RELATIONS AUTHORITY

    Mr. Pizzella. Thank you. Unfortunately, I am unable to 
introduce my family because my wife is taking care of a family 
matter--but thank you, Mr. Chairman and Chairman Lankford and 
Senator Carper and Members of the Committee. I want to thank 
you and your staff for all the courtesies shown to me as I have 
prepared for this hearing. Given the seriousness of the issues 
that presently confront you, I am especially appreciative of 
the time you have taken to ensure that the Federal Labor 
Relations Authority operates at full strength.
---------------------------------------------------------------------------
    \1\ The prepared statement of Hon. Pizzella appears in the Appendix 
on page 33.
---------------------------------------------------------------------------
    This is the fourth time I have had the privilege of being 
nominated by a President for a position of public trust. I am 
honored that the President nominated me once again to be a 
member of the Federal Labor Relations Authority, and, if 
confirmed, I will continue to dedicate myself to discharging 
the responsibilities of the FLRA in accordance with laws, 
rules, and regulations.
    I began my tenure in Federal service in the early 1980s, 
and I believe my 23 years of experience in the Executive Branch 
will continue to be an asset to the FLRA.
    I enjoyed the past 2 years as a member of the FLRA and with 
your support hope to continue in that role.
    I am looking forward to answering any questions you may 
have. Thank you.
    Senator Lankford. Thank you. Ms. Becker.

  TESTIMONY OF JULIE H. BECKER,\1\ NOMINEE TO BE AN ASSOCIATE 
       JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Becker. Thank you. Mr. Chairman and Members of the 
Committee, thank you for the opportunity to appear before you 
today as a nominee to be an Associate Judge of the District of 
Columbia Superior Court. It is a great honor to be nominated 
and considered for this position. I would like to thank the 
Judicial Nomination Commission and its Chair, the Honorable 
Emmet Sullivan, for recommending me to the White House, and I 
thank the President for nominating me.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Becker appears in the Appendix on 
page 73.
---------------------------------------------------------------------------
    I am here today with my parents, sitting behind me, Allan 
and Patricia Becker, and my husband, Alan Silverleib. I am 
immeasurably grateful for their love and support and for the 
joy I receive every day from my 3-year-old daughters, Anna and 
Rebecca, who are at school today. I am also fortunate to be 
joined by a number of friends, mentors, and colleagues who have 
encouraged me not only during this process, but throughout my 
career as an attorney. I would not be here today without them.
    I have spent the past 15 years at the Legal Aid Society of 
the District of Columbia. I have been privileged to work with 
hundreds of individuals and families to secure and maintain 
decent, safe, and affordable housing. I have represented 
clients in every ward of the city, and I have dedicated my 
career to the goal of ensuring that all members of our 
community have meaningful access to the legal system.
    The vast majority of my work as an attorney has taken place 
in D.C. Superior Court. I have tried cases in its courtrooms, 
spent time in the clerks' offices, and negotiated settlements 
in the hallways. I have served on two of the court's Rules 
Committees, helping to write and revise rules of procedure for 
the Landlord and Tenant Branch and the Housing Conditions 
Calendar. These experiences have given me the opportunity to 
think critically about every aspect of court proceedings and to 
help create a better, more efficient process for all parties.
    Over the years, I have learned a great deal from judges on 
the Superior Court bench about the skill, patience, and 
dedication that the job requires. I look forward to the 
challenge of living up to their example. If I am confirmed, I 
will work every day to ensure that the law is applied fairly in 
every case, and that all parties appearing in court are treated 
with the dignity and respect they deserve.
    Thank you again for the honor of considering my nomination. 
I look forward to answering any questions you may have.
    Senator Lankford. Thank you. Mr. Berk.

  TESTIMONY OF STEVEN N. BERK,\1\ NOMINEE TO BE AN ASSOCIATE 
       JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Berk. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Berk appears in the Appendix on 
page 111.
---------------------------------------------------------------------------
    Mr. Chairman and Members of the Committee, I am honored and 
truly humbled to appear before you today as a nominee for the 
position of Associate Judge of the Superior Court for the 
District of Columbia. I would like to thank the D.C. Judicial 
Nomination Commission, and in particular its Chairman, Federal 
District Court Judge Emmet Sullivan, who was nice enough to 
come here today.
    Senator Carper. Would you raise your hand, please? Higher? 
Welcome. Good to see you.
    Judge Sullivan. Thank you.
    Mr. Berk. I would like to thank the White House and I would 
like to thank the President for nominating me. And I would like 
to acknowledge my colleagues, friends, and family who are here 
today and have been with me throughout this journey.
    I would like to recognize first my two sons, Corey and 
Jacob, who are actually twins--it may not seem like that, but 
you can try to guess who is older. And I would like to 
recognize my mother, who is here from Chicago, sitting right 
behind me. She raised me to always strive for excellence in 
whatever I did and whatever I chose to pursue.
    And, finally, to my wife, Jenny, who is also behind me, who 
has never wavered in her support of me, picking me up when my 
spirits lagged, and believing in me sometimes more than I 
believed in myself.
    Someone who I wish were here today is my father, who died 
last year after a long and valiant battle with cancer. At the 
close of World War II, American soldiers liberated my dad from 
the Dachau concentration camp in Germany. He was days from 
death, suffering from profound malnutrition and typhus. He 
eventually regained his health and came to the United States as 
an orphan in 1948. Two years later, he was a member of the 
United States Army serving two tours of duty on the front lines 
in Korea before returning to Chicago, marrying my mom, and 
eventually becoming a successful entrepreneur. He loved this 
country, and I miss him very much today.
    I attended law school because I was interested in public 
service. That interest brought me to Washington in 1989 where I 
worked as a prosecutor at the Securities and Exchange 
Commission and the United States Attorney's Office for the 
District of Columbia. After leaving the U.S. Attorney's Office, 
I went on to become a partner at the law firm of Jenner & 
Block. In more recent days, I have been representing 
individuals such as defrauded investors, consumers, small 
business owners, and whistleblowers. I have had a 30-year 
career in the law, and in those 30 years, I have appeared in 
courtrooms throughout the country in administrative 
proceedings, Federal court, State courts, and legislative 
bodies.
    Over the past 5 years, I have continued to demonstrate a 
commitment to public service by volunteering for and being 
elected to leadership positions at the D.C. Bar. I served as a 
member of and later chair of the Judicial Evaluations 
Committee. I have also been elected treasurer and currently sit 
as a member of the Board of Governors.
    If I am fortunate enough to be confirmed, I will commit to 
having everyone in my courtroom treated with dignity and 
respect. I will be decisive and make timely and thoughtful 
decisions. And I will be prepared each day to dispense with 
justice.
    Thank you for your consideration of my nomination, and I 
will be pleased to answer any of your questions.
    Senator Lankford. Thank you. Ms. Wingo.

TESTIMONY OF ELIZABETH C. WINGO,\1\ NOMINEE TO BE AN ASSOCIATE 
       JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Wingo. Mr. Chairman and Members of the Committee, thank 
you for the opportunity to appear before you today as you 
consider my nomination to be an Associate Judge of the Superior 
Court of the District of Columbia. I would like to thank the 
Judicial Nomination Commission and its chair, the Honorable 
Emmet Sullivan, for recommending me to the White House, and I 
would like to thank President Obama for nominating me. In 
addition, I would like to express my thanks and appreciation to 
the Committee Members and the Committee staff for their hard 
work and for considering my nomination so expeditiously.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Wingo appears in the Appendix on 
page 132.
---------------------------------------------------------------------------
    I would also like to acknowledge and thank Chief Judge Lee 
Satterfield for his leadership, his support, and his presence 
here today.
    Senator Carper. Would he raise his hand--Lee Satterfield? 
Thank you, sir. Welcome.
    Judge Satterfield. Thank you.
    Ms. Wingo. I am also very fortunate to have a number of 
members of my family, who have been very supportive, here with 
me to today, and I would like to introduce and thank them: my 
husband, Harry Wingo; my children, Alexandra and Natalie 
Wingo----
    Senator Lankford. Which, by the way, I discussed with them 
possibly them doing testimony later as well. [Laughter.]
    And they declined that.
    Ms. Wingo. I also have here my parents, Tony and Judy 
Carroll; my brother and sister-in-law, Tom and Katherine 
Carroll; my sister and brother-in-law, Michaela and Ted Lizas, 
and their children, my nieces Amy and CC Lizas.
    Senator Carper. Is that all? [Laughter.]
    Ms. Wingo. I would also like to acknowledge and thank my 
stepdaughter, Hailey, who is a junior in high school and was 
unable to be here today.
    Finally, I would also like to thank the many friends and 
current and former colleagues who have supported me over the 
years, some of whom are also present here today.
    I was born and raised in the District of Columbia and have 
spent most of my legal career serving the citizens of the 
District. After clerking for the Honorable T.S. Ellis in the 
Eastern District of Virginia, I spent 4 years at the U.S. 
Attorney's Office for the District of Columbia, prosecuting a 
wide variety of crimes, from misdemeanor simple assaults to 
homicides. Following my time at the U.S. Attorney's Office, I 
continued to work on behalf of the people of the District at 
the Office of the Attorney General for the District of 
Columbia, where I served as the Chief of the Criminal Section 
and then as the Assistant Deputy Attorney General for Public 
Safety.
    Since 2006, I have had the honor of serving as a magistrate 
judge in the Superior Court, where I have had the opportunity 
to preside over calendars in the Criminal and Civil Divisions, 
as well as in the Family Court and Domestic Violence Unit. It 
would be a privilege and an honor for me to continue my public 
service as an associate judge in the Superior Court.
    Thank you for your consideration, and I look forward to 
answering your questions.
    Senator Lankford. I thank all of you.
    There are three questions that I am going to ask for this 
entire group, and I am going to need an oral yes or no on this. 
What I will do is I will ask the question and then we will just 
go down the row. It will be very informal. Sorry about that. 
These are questions that we find extremely important to be able 
to ask every candidate as they come through.
    First--and I will ask all four of you to answer this 
question yes or no--is there anything that you are aware of in 
your background that might present a conflict of interest with 
the duties of the office to which you have been nominated? Mr. 
Pizzella.
    Mr. Pizzella. No, sir.
    Senator Lankford. Ms. Becker.
    Ms. Becker. No.
    Senator Lankford. Mr. Berk.
    Mr. Berk. No.
    Senator Lankford. Ms. Wingo.
    Ms. Wingo. No.
    Senator Lankford. Second question: Do you know of anything, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated? Mr. Pizzella
    Mr. Pizzella. No, sir.
    Senator Lankford. Ms. Becker.
    Ms. Becker. No, sir.
    Senator Lankford. Mr. Berk.
    Mr. Berk. No, sir.
    Senator Lankford. Ms. Wingo.
    Ms. Wingo. No, sir.
    Senator Lankford. Thank you.
    Third, do you agree without reservation to comply with any 
request or summons to appear and to testify before any duly 
constituted committee of Congress if you are confirmed? Mr. 
Pizzella.
    Mr. Pizzella. Yes, sir.
    Senator Lankford. Ms. Becker.
    Ms. Becker. I do.
    Senator Lankford. Mr. Berk.
    Mr. Berk. Yes, sir.
    Senator Lankford. Ms. Wingo.
    Ms. Wingo. Yes.
    Senator Lankford. Thank you. I recognize Ranking Member 
Carper for any questions.
    Senator Carper. Mr. Chairman, thank you. Thank you so much.
    Those were wonderful testimonies. I was especially touched, 
Mr. Berk, by the story you told us about your dad and shared 
that with us. What a guy. What a life he lived. And I 
appreciated the lovely comments that you have made about your 
mom and about your wife. Those are lovely--and all of you for 
introducing your family and friends. It is one of my very 
favorite parts of these hearings, so we are glad that you are 
all here.
    I just want to start with a quick question, if I can, for 
you, Ms. Wingo. The role of a magistrate judge is a bit 
different, as you know better than anybody else, the role of an 
associate judge. Just take 30 seconds and describe some of the 
differences.
    Ms. Wingo. One of the primary differences is that an 
associate judge has a broader range of responsibilities. There 
are calendars that associate judges are assigned to that 
magistrate judges do not handle. There is also a broader range 
of types of things that an associate judge can do, the biggest 
one being jury trials. A magistrate judge does not handle jury 
trials, so we, generally speaking are limited to misdemeanors; 
whereas, an associate judge can handle the jury trials and, 
therefore, can handle anything in the court.
    Senator Carper. Take another 30 seconds and just give these 
two people closest to you, Mr. Berk and Ms. Becker, just give 
them some friendly advice. [Laughter.]
    Ms. Wingo. Well----
    Senator Carper. Unfriendly advice. [Laughter.]
    Ms. Wingo. Truly, the friendly advice that I would give is 
to rely on your colleagues, because I have found at the court 
that there is no greater resource and that there is no greater 
willingness anywhere in any employment for your colleagues to 
help you out. The other judges, the staff, the clerks--everyone 
is very supportive of each other, and everybody is working 
toward the same goal, which is to ensure that there is equal 
justice for all. And so you should feel free to rely on those 
folks if you need them.
    Senator Carper. All right. Thanks. Thanks for that advice.
    I would note that our judicial nominees come from very 
different legal backgrounds and have focused on certain areas 
of the law throughout your career. That is not uncommon. 
However, if confirmed, I understand that you will preside over 
time over cases arising under many different areas of the law. 
And we have a similar situation with the Federal district court 
judges in Delaware. But how has your career prepared each of 
you to handle the wide range of legal issues that you will 
confront as an associate judge? And how will you ensure that 
you are prepared to preside over cases in areas of law which 
you may be not as familiar with? Ms. Becker, do you want to 
lead off on that one? Then Mr. Berk.
    Ms. Becker. Thank you, Senator. I certainly would have a 
lot to learn, particularly in divisions in which I have not 
frequently appeared, and I will say I look forward to the 
challenge of learning new areas of the law.
    I think what I would come in with is that the folks that I 
have been representing during my career are, by and large, the 
litigants who appear in D.C. Superior Court. And I have had 
quite a lot of experience working with individuals of all 
education levels and, by and large, people who are not familiar 
with and not comfortable with the legal system.
    And so what I have gained from those experiences is I think 
primarily communication skills. I can listen to the story that 
a person tells and be able to extract from that story what are 
the legally relevant facts for deciding the case. And I have 
also become good at communicating sometimes complex legal 
concepts in a way that is accessible to people who are not 
lawyers.
    Senator Carper. OK, good.
    Mr. Berk, same question. How will you ensure that you are 
prepared to preside over cases in areas that you are not as 
familiar with?
    Mr. Berk. If I may, Senator, let me just say that Ms. Wingo 
has been terrifically generous with both of us in terms of 
giving us the insights for today's hearing.
    Senator Carper. No kidding.
    Mr. Berk. She has been great.
    Senator Carper. Isn't that against the rules? [Laughter.]
    Senator Lankford. No. But that does mean the harder 
questions will gear toward her then the rest of the day.
    Senator Carper. OK. [Laughter.]
    Mr. Berk. I am sorry if I got you in trouble.
    Senator Carper. You are OK.
    Mr. Berk. I have been practicing law 30 years. It goes 
quickly. And I have been fortunate, very lucky to be able to 
practice in jurisdictions all over the country and to do 
different types of cases. It has been heartening. I will get 
phone calls from people, and they will say, ``Have you done 
something like this?'' And I will be, like, ``No, but I am 
willing to try.'' And I think on the Superior Court there will 
be things that I have not seen before, certain areas of the law 
that I am not as familiar with.
    But I am very familiar with getting up to speed quickly on 
matters, and I am confident that those skills can be used by me 
if I am lucky enough to be confirmed.
    There are areas where there is probate and there is tax and 
there is property and landlord-tenant. I have not done those 
areas. But I have applied facts to law, and at the end of the 
day, that is what lawyers do and judges do, is apply facts to 
the law and respect the rule of law. And so regardless of the 
type of case it is, I think those basic sort of tenets are with 
you, and I am confident I can provide good judging on a wide 
array of cases.
    Senator Carper. The situation you face as a new associate 
judge will be not unlike what we face in coming here as a new 
Senator. We end up with assignments to committees. Some of us 
come as attorney generals. Some of us come as leaders in our 
State. Senator Lankford has an incredible background, a 
military background and other things. But I ended up on this 
Committee, and I could barely spell ``cybersecurity,'' and I 
ended up as the Chairman of the Committee a couple of years 
ago. And there was a profile done of the new Chairman of the 
Committee, and they noted that I was the Senate expert on 
cybersecurity at the time. And I showed this to my staff, and I 
said, ``Look at this. Now I am the expert on cybersecurity.'' 
And they said, ``In the land of the blind, the one-eyed man is 
king.'' [Laughter.]
    So do not get too puffed up.
    A question for you, Mr. Pizzella.
    Mr. Pizzella. Yes.
    Senator Carper. Could you just discuss with our colleagues 
here how you and your fellow members of the FLRA achieved the 
goal of significantly reducing the backlog--you had a huge 
backlog, and I think you now have reduced the amount of time 
that it takes to issue a timely decision. Just briefly, how did 
you do it? How did you guys do it?
    Mr. Pizzella. Well, the backlog was acquired because for a 
period of about a year there was a lack of a quorum. That was 
primarily what did it. And the Senate, when we had nominations 
made by the President, moved rather quickly to get a quorum in 
place. Both my colleagues, each had served as Chairman of the 
Federal Labor Relations Authority at one time or another 
before, and so they had much more experience than I did. And it 
took me a little while to get up to speed, but once we got 
going, we got going. And in the first year, for instance, 70 
percent of the cases that we issued decisions on were 
unanimous. And that pattern has continued because the law is 
the law.
    So we worked cooperatively and collegially and shared 
resources when necessary among offices, and we were able to put 
the backlog behind us.
    Senator Carper. Oh, good. My time has expired. I have to go 
to another meeting. I will stay here for a while and hear some 
of the questions, but I have to leave. But I want to thank you 
again for being here and for all who have joined you. Thank 
you.
    Senator Lankford. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman, and thanks to all 
of you for your great service. You all have many years of 
valuable experience that you will take into these positions, so 
thank you for that. And thanks for the lovely introduction of 
all of your family and friends. And, Mr. Berk, to you, that was 
a great introduction of your family and many blessings to your 
family in the absence of your father. He sounds like an 
extraordinary man, so thank you for that. I appreciate that 
very much.
    To Ms. Wingo, Ms. Becker, and Mr. Berk, a very easy 
question, actually. Please describe your current thoughts on 
what it means to be an independent judge as well as the 
importance of judicial independence. Ms. Wingo, if we could 
start with you, please.
    Ms. Wingo. Judicial independence means that a judge is able 
to make decisions based on the evidence in the case before it 
and the law as applied to that evidence free from outside 
pressures, free from outside considerations. I think that it is 
essential to achieving the goal of equal access to justice for 
all, and that is one of the fundamental goals of the judicial 
system, and in the Superior Court in particular.
    Senator Ernst. Very good. Thank you. Mr. Berk.
    Mr. Berk. Yes, I think about the time that I spent being 
the chair of the Judicial Evaluations Committee here at the 
D.C. Bar and looking at what lawyers would say about judges. 
And, by and large, judges are rated quite highly, but there are 
some that are not. And it is because of some--not so much a 
flaw but a perception that they are not being independent, that 
they are flawed by preconceived ideas or notions or where they 
came from. And I hope to think that because my perspective is 
broad, because I have been on all sides of the table--I have 
been on the government side of the table, the defense side of 
the table, the plaintiff side of the table--that I can be 
independent because I understand everyone's perspective.
    Senator Ernst. Very good.
    Mr. Berk. And I think that will be helpful.
    Senator Ernst. Thank you very much. Ms. Becker.
    Ms. Becker. Thank you. I think that independence is really 
inherent, possibly central to the role of the judge. A judge 
has to be able to make decisions based on the facts that are 
presented in that individual case and applying the law that is 
governing to those facts, free from any outside pressures of 
any kind. And if a judge cannot do that, then we have a 
problem.
    Senator Ernst. Exactly. Thank you. Very good.
    And, Mr. Pizzella, a little tougher one for you. You 
dissented in a July 2014 opinion regarding a union grievance 
about U.S. Immigration and Customs Enforcement's (ICE) decision 
to block access to personal email on government computers 
without first offering an opportunity for collective 
bargaining. And to paraphrase your dissent, you suggested that 
Federal agencies should not be required to bargain with the 
union before they can act to secure the integrity of the 
Federal information technology (IT) systems. This became an 
issue again last year when, following the devastating breach at 
the Office of Personnel Management (OPM), the agency attempted 
to block access from government computers to certain websites 
that they deemed security risks. But the union threatened a 
lawsuit, and, ironically, then the union also sued OPM for 
failing to protect Federal Government employees' information. 
And just a note. My husband and I were also included in those 
that had information that was leaked.
    I have great concerns about how the 2014 FLRA decision 
could be used to inhibit Federal agencies' efforts to enhance 
their cyber defenses. As OPM Acting Director Beth Cobert 
acknowledged during her recent confirmation hearing before this 
Committee, personal email accounts are the way a lot of threats 
come in.
    So, accordingly, for the Committee's benefit, could you 
elaborate on your dissent from that 2014 case? And if you can 
provide us with any update on that situation as well.
    Mr. Pizzella. Yes, thank you, Senator. I did feel strongly 
about that at the time. The dissent pre-dated the now well 
acknowledged security breach at OPM. In my capacity as 
Assistant Secretary of Labor for almost 8 years, from 2001 to 
2009, I also had the role of the Chief Information Officer 
(CIO), so I had some knowledge--far from an expert, not a 
technology guru, but I had some knowledge about the sensitivity 
of protecting data, particularly from outside sources getting 
in. And I felt that the head of an agency, if determining after 
consultation with the technology experts at his or her 
department, felt the need to shut down access to personal 
websites and email, then that should be a decision that the 
head of that agency should be able to make without wasting time 
on anything, but to get to the core of the matter, which was 
obviously preventing and protecting us from cybersecurity 
attacks.
    I still believe strongly about that. As a matter of fact--
you mentioned the OPM instance--I, too, was notified of my 
exposure in that.
    Senator Ernst. Many of us were.
    Mr. Pizzella. About a month after the OPM incident, Acting 
Director Cobert unilaterally shut down access to web email and 
Gmail without even informing the employees. And I know of no 
action that the union took in response to that, because I think 
common sense has caught up with perhaps this deference to 
needing to consult when there is something that could be called 
sort of an emergency or sensitive situation.
    So I do think it is important for agency heads to have that 
authority to act quickly and to do so without having to consult 
with unions or other third parties.
    Senator Ernst. Well, thank you. I appreciate that. Whenever 
there is an active threat out there, I think it is very 
important that those department heads are able to respond to 
those threats. But I appreciate it. Thank you all very much for 
being here today. I truly do appreciate it.
    Thank you, Mr. Chairman.
    Senator Lankford. I recognize Senator Carper.
    Senator Carper. I am not going to ask any more questions. I 
would like to note--and thanks for giving me this chance--that 
Congresswoman Norton wanted to be here, expected to be here to 
introduce you, Ms. Becker, Mr. Berk, and Ms. Wingo. She is in a 
markup over in the House of Representatives offering an 
amendment or amendments at the markup, so that is her day job. 
That is her job. And she wishes she could be here, be in two 
places at once, but she sends her best.
    Senator Lankford. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman.
    I am always struck by how remarkably well qualified folks 
are who come in front of us and by the fact that all of you 
really in the prime of your careers could be making, six, 
probably seven figures doing something else, and you are 
willing to step up and serve the public and serve this 
community, which has unique challenges, being in the District, 
and use your enormous talents and your remarkable academic 
credentials for the betterment of the community. And so I think 
I start out by just saying thank you, thank you, thank you, 
thank you for everything that you do and for being willing to 
go through this process, which not a lot of what I would say 
State courts judges are required to do, but still willing to 
serve.
    And so I do not have a lot of questions, but I was struck, 
Ms. Becker, by your comments about the skills that you have 
learned serving the public the way you do right now. I recently 
had an encounter with somebody who was looking for the court, 
the D.C. court, and they were mistaken and ended up here 
looking at the Supreme Court and looking quite confused. I 
think this man was probably homeless. He had a roller board 
with him. And I thought--I did not ask him why--I was trying to 
help him find the court he was going to, and I did not ask him 
why he was seeking out the court, but I thought when he left--
and I offered to get him a ride on Uber, and he said, no, he 
would walk, he still had an hour. And I was struck with I hope 
when he gets there--and I do not care what his crime is--that 
he is treated with respect and that he is given an opportunity 
to really understand why he is there, because he seemed quite 
confused to me.
    And I want to really applaud your answer and say how 
difficult it is. You are not dealing at the Supreme Court level 
with very sophisticated jurists and lawyers who, are at the 
peak, the pinnacle. You are dealing with people who are 
homeless, who may have done something that, as a result of 
mental illness or extreme poverty, seemed like the only choice 
at the time.
    So I guess when you look at that--and my question is to 
you, Ms. Wingo. You look at the kind of folks who come into the 
court--because you have seen them--and you realize that if we 
are going to have a judicial system, it has to be accessible to 
people at all levels, as you have said.
    So what changes would you make or recommend once you get 
into this next step on making the court more accessible, making 
the court function better to better serve all the people of the 
district? I know there are some real judges out there, so do 
not worry about them. They will never know what you said. 
[Laughter.]
    Ms. Wingo. Well, I do not know that I can count on that, 
but I think that I would answer on two levels.
    One, I think--and this is not precisely a change, but on an 
individual level, I think individual judges have an obligation 
to make sure that they are treating every individual with 
respect, making sure that they do understand the process, that 
they are taking the time to explain it, and that they are 
explaining it in language that anybody can understand.
    Senator Heitkamp. What percentage of people who appear in 
the court appear pro bono--without counsel?
    Ms. Wingo. That depends on what courtroom you are in. So, 
for example, when I was in a small claims courtroom, it was 
everybody.
    Senator Heitkamp. Sure.
    Ms. Wingo. Pretty much everybody. In the criminal 
courtrooms, they have a right to counsel, and so the court 
appoints counsel for almost everybody. In the traffic 
courtroom, there are some cases that are immediately diverted 
where they are trying to seek a resolution that is not heading 
toward trial and conviction but, for example, doing community 
service and getting your case dismissed. Those folks are not 
necessarily assigned counsel. There are counsel for the 
courtroom who can assist everybody in that kind of category. So 
it really depends on what kind of courtroom you are in, I 
think, what the percentage would be.
    Senator Heitkamp. So I did not mean to interrupt, but how 
can we make the court more accessible, more understandable to 
everybody who comes there, whether you are in small claims or 
whether you are in, some kind of diversion program?
    Ms. Wingo. So for the second part, once you are out of the 
individual level, when you look at it from an institutional 
level, this is something that the Superior Court has focused on 
a lot. And so continuing some of the things that they are 
already doing and expanding them, for example, we have resource 
centers or self-help centers in many divisions--the family 
court self-help center, there is a consumer law resource 
center, there is a small claims resource center. All of those 
programs could always be expanded because there is more that 
you could do for folks. But they are places where people can go 
when what folks need is more than what a judge can do without 
stepping outside their role as a neutral arbiter.
    Senator Heitkamp. I think that is an excellent answer, and 
as we look at criminal justice reform, whether we are able to 
do it or not, that is going to involves courts at all levels 
kind of reexamining the kinds of people who are entering the 
criminal justice system who also--if you ask many people in my 
State do we do a pretty good job giving people access to the 
courts on the criminal side, yes, because we have Gideon v. 
Wainwright. But, if they come in and they have a spouse who is 
able to afford a lawyer in a family matter, they are really 
disadvantaged.
    And so I am curious about all of your opinions about 
mediation, whether you think that is a diversion that we should 
use more, about restitution and other kinds of new judicial 
tools that could, in fact, make the court more accessible, 
reform the court in ways that it is not, a judge sitting on a 
dais and looking down at the citizens who are seeking justice. 
Ms. Becker.
    Ms. Becker. I am a supporter of mediation. Over the years 
that I have been practicing--my area is primarily landlord-
tenant law, and the court has shifted to requiring mediation at 
some point in all landlord-tenant cases. And I have found that 
to be a very useful process because most cases do settle. 
Probably most cases should settle. And mediation is a chance 
for the parties to reach a settlement that is in their own 
control. That is sort of the mantra of the mediation center, 
that ``The power is in your hands'' in a way that it is not if 
the case goes to trial.
    I think that mediation can pose problems if one side is 
represented and the other is not, because obviously there is an 
imbalance in information, there is an imbalance in bargaining 
power. And so I think one of the ways that the court can 
address that is to make the mediators aware of that and 
sensitive to it, and also make it easier, as they have done in 
recent years, for unrepresented individuals going into 
mediation to connect with counsel on some level to advise them 
about their rights.
    Senator Heitkamp. Thank you. Mr. Berk.
    Mr. Berk. It is a difficult question, because I think that 
the judge has to be--it is a balancing act, if you will. On the 
one hand, you do not want the judge being too active in the 
litigants' dispute. The judge has to be a referee. The judge 
has to be calling balls and strikes, so to speak.
    On the other hand, for efficiency purposes, you cannot give 
everyone--there is just not enough time in the day nor is there 
the need for everyone to have a trial. A lot of things can be 
resolved through people of good faith coming together and 
realizing what the issues are and making a decision based on 
that.
    So I think in my practice I would say 75 percent of the 
cases start with mediation, and it is a good vehicle, but it is 
not a perfect vehicle. I can only tell you that on an 
individual basis in a courtroom, if I was confirmed, that I 
would want to set the tone for respect for everybody, not just 
the litigants but the court clerk and the police officers that 
come in and every individual so that there is a tone of 
respect. And I think once people have that, they are more 
willing to consider options and consider settlements and 
consider resolutions, whereas if they feel they are in an 
adversarial proceeding or an adversarial room or an adversarial 
forum.
    I am not yet familiar with the larger policy issues. I have 
not been in the court to that extent. But I know on an 
individual issue or in individual cases you can set the tone in 
your courtroom for a place that is welcoming, if you will, to 
resolution of cases and not the adversarial system. And what I 
have seen too much in my career--and I am sorry to go--is, 
lawyers that get angry at each other and there is a lot of 
vitriol that does not accomplish anything.
    Senator Heitkamp. My apologies. My time is up, so thank you 
so much.
    Senator Lankford. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thank you to 
the nominees for your statements and for appearing here today 
this morning.
    I certainly know that your families and friends are all 
very proud of you, as they should be with your distinguished 
career and accomplishments. And, Ms. Becker, I am particularly 
pleased to see you as a native Michigander. I know that you 
will definitely represent the State of Michigan with great 
distinction should you be confirmed. You do already, but should 
you be confirmed, that track record will continue.
    There are certainly a number of qualities that I believe 
and I think most of the folks on this panel believe every 
judicial nominee should have, and that would include a strong 
legal background, experience handling a variety of cases, as 
well as a fair approach to legal issues.
    So maybe if I could ask each of the judicial candidates to 
give me a little sense of what is your view of the appropriate 
temperament of a judge, what elements of temperament do you 
believe are essential to fairly considering cases? And take a 
moment to describe how your experience working with diverse 
roles has helped you develop what you consider to be this 
appropriate judicial temperament. We will start down here. Ms. 
Becker.
    Ms. Becker. Thank you, Senator. I think that in order to be 
a good judge, a judge has to possess the qualities of patience, 
of integrity, and a true interest in what I would characterize 
as the intellectual and human challenges of the law. Sitting as 
a trial court judge, you really see the gamut of human 
experience coming in through the courthouse doors every day. 
And some of the cases present challenging, difficult factual 
issues. Some of the cases present challenging legal issues. And 
I think a judge really has to want to delve into those issues 
and be excited about trying to figure out what the answers are. 
And I believe that I would be suited to that role.
    Senator Peters. Mr. Berk.
    Mr. Berk. Thank you, Senator. I think the first quality of 
a good judicial temperament is somebody who listens. And that 
may seem really basic, but I always will tell folks that you 
learn more from listening, and so you really need to listen to 
your witnesses, you need to listen to the litigants. If a 
defense attorney or an attorney comes in and wants their third 
extension and comes up with some excuse, you want to listen to 
that and really determine whether they are telling you the 
truth or not. So listening is key.
    I think that you have to be decisive. The worst thing that 
can happen to you as a litigant is that the judge does not 
decide, that you are asked to come back in 6 weeks, 8 weeks, or 
9 weeks. You have to have the courage to be decisive, and I 
think that that is part of the temperament.
    And I guess the last one--and I do not mean to sound trite 
at all, but you need to be fair. And when I talk about 
fairness, I talk about fairness in a procedural way so that I 
know when I have argued an appeal or argued a motion or argued 
something, you want to know why the judge is going to rule 
against you. ``Mr. Berk, you have not made the fourth 
element,'' or something to that effect, so that the judge is 
fair to you and you respect that decision more afterwards 
because you have gotten that opportunity to know what you were 
missing.
    So it is decisiveness, it is fairness, and it is listening, 
I think, for me that would be the three.
    Senator Peters. Thank you.
    Ms. Wingo. I think that I would echo the comments of Ms. 
Becker and Mr. Berk to some degree. I definitely agree that 
fairness is the first and foremost quality, and by that, you 
have to be calm, you have to be able to treat everyone in front 
of you with a dignity and respect so that you can hear what 
they are saying, so that you actually get the information from 
all sides, so that you can make an appropriate decision.
    I think you need to add to that a substantive knowledge of 
the law that you are deciding and a willingness to do the work 
to get the answer if you do not already know it.
    I think also, as Mr. Berk said, you need to be decisive 
because as the saying goes, justice delayed in justice denied. 
And it is not enough to come to the correct decision. You need 
to do it efficiently so that you can handle the high volume of 
cases that our court has.
    And then, finally, I think you really need to be someone 
who is articulate in a way that you can talk to everyone who 
comes before you, whether they have a law school background or 
no background at all, so that everyone who walks in the door 
walks out feeling like they have had an opportunity to be 
heard, they understand what happened, and they know why it 
happened.
    Senator Peters. Great. Well, thank you.
    A followup question to Ms. Becker. First off, I want to say 
I have had an opportunity to talk with you prior to this 
hearing, and I appreciated that opportunity. And I am certainly 
impressed by your background, first and foremost, of course, 
from the University of Michigan, which is a great educational 
background, but then going off to Yale University. You were an 
individual who was on a fast track that could have gone any way 
with your legal career but chose to help those who often do not 
have a voice, which I commend you for your career. And given 
that, and given your previous work focusing on helping and 
representing low-income District of Columbia residents at Legal 
Aid Society, you helped clients challenge the termination of 
housing subsidies, assisted tenant associations in preserving 
affordable housing, and a variety of other areas that you 
worked on.
    Could you describe the importance of your work and your 
experience working with low-income populations and how that 
makes you particularly well qualified to serve on the D.C. 
Superior Court?
    Ms. Becker. Thank you, Senator. Let me answer that in two 
ways.
    First, I want to talk a little bit about housing because 
that has been my primary focus. I think that although I have 
been focusing on that area, I think the reality is that housing 
is really critical to every aspect of an individual's life, and 
particularly a low-income individual's life. Housing is 
critical to maintaining family stability, which is critical to 
retaining custody. Housing is critical to allowing children to 
get a good education. Housing is critical to giving citizens 
returning from incarceration the stability that they need to 
avoid recidivism and become productive members of society. And 
so through my housing work, I have really come to understand 
all of the other factors that impact the litigants who are 
appearing in Superior Court.
    And then more generally, I think that because I have spent 
such a long time in Superior Court, because I have appeared in 
so many of the courtrooms and had a chance to observe so many 
of the things that happen there, I think that I would be well 
prepared to join the bench there. I am excited by the prospect 
of doing that, and I think that my experience has prepared me 
to communicate with individuals at all levels, with attorneys, 
with individuals who are not represented by counsel, with 
individuals who know something about the law and individuals 
who do not, because I have had practice in doing all of those 
things throughout my career.
    Senator Peters. All right. Thank you. My time has expired, 
Mr. Chairman.
    Senator Lankford. Thank you.
    We blocked off about an hour an a half for this, which 
means the last round of questions I get 35 minutes, and we will 
go from there. [Laughter.]
    I will quick run through a series of questions, but I do 
have quite a few questions, and we will go through several of 
these.
    Mr. Pizzella, you previously indicated you would bring the 
taxpayer viewpoint to your responsibility as well. Can you help 
me understand a little bit about that, what you have done 
already as you think about the taxpayer in your decisions? How 
does that affect you? And how do you use that as a filter?
    Mr. Pizzella. Two items come to mind. One deals with the 
subject of union official time and the need, at least I 
believe, to have a lot of transparency in that, current data 
about its usage, because union official time is paid for by the 
taxpayer. So I have pointed that out in a variety of decisions, 
and I think it will be a recurring issue.
    Senator Lankford. In your view, how should official time be 
used in the transparency you describe?
    Mr. Pizzella. Well, No. 1, I think it should be limited to 
collective bargaining activities. But, No. 2, I think that 
there should be timely information provided to Members of 
Congress and to the public as to how much is being utilized. 
The most recent information available is from, I believe, 
fiscal year (FY) 2012, and my recollection as a former 
Assistant Secretary at the Department of Labor is that we 
collected information on official time in the payroll system. 
So it was done every other week. A person who was in official 
time status, that would be recognized in the payroll system. So 
I do not think it is a rather cumbersome thing to accumulate. 
But since there is no requirement on OPM or any other agency to 
provide that information to Members of Congress or the public 
in general, it is only obtained through a persistent Member of 
Congress or a congressional hearing sometimes. So I think that 
would be much more helpful in the area of transparency so we 
really know what is being spent. The last time they released 
information on this, I think it was $159 million, but that is 
now at least 3-year-old information.
    Senator Lankford. OK. So tell me about an example when an 
agency action or instruction is non-negotiable, so when some 
agency or some action that they have taken you would say that 
is non-negotiable, that is going to be outside of the 
relationship and bargaining.
    Mr. Pizzella. Well, there are certain things that are 
statutorily non-negotiable: wages and benefits of Federal 
employees, any type of agency shop type of recognition. Then 
there are other things that the collective bargaining agreement 
itself may not specify as negotiable, which then can be subject 
to debate between the parties, which often ends up in 
arbitration and sometimes comes to the FLRA.
    Some things could be rather serious; some things could be 
rather trivial. We have had cases where employees felt 
aggrieved because the temperature in their worksite was 3 
degrees below what the contract required and it did not get 
fixed until later in the day. But a case like that reached all 
the way to the Federal Labor Relations Authority. So that is an 
example, I guess.
    Senator Lankford. Yes, kind of a tough example on that.
    Let me ask a question that is a process question for us. It 
is very difficult for Members of the Senate or Members of the 
House to get information from agencies about recommendations 
for statutory changes that are needed. You and the folks that 
are around you understand more than anyone else the needed 
changes in things like the Federal Service Labor-Management 
Relations Statute. You get it because you experience it and you 
see the problems.
    The problem is you see the problems but are often not 
permitted to tell us what the problems are. We cannot fix a 
problem that we cannot see when you are dealing with it day to 
day. How do we get information and clarity on those issues so 
we do not have problems persist because we did not know about 
it and you are not allowed to tell us?
    Mr. Pizzella. Well, I guess I would use two examples. One 
would be this very issue that we discussed earlier regarding 
cybersecurity. Certainly through any dissent or opinion of the 
Federal Labor Relations Authority, you can glean from that what 
might be wrong and needs corrective action. And I believe I 
read just the other day, I think it might have been the House 
has moved some legislation that deals with this issue of 
cybersecurity and the responsibility in the head of the agency 
to make the final decision rather than have it subject to 
collective bargaining. So that is one.
    And the other thing that, again, is recently in the news 
was on the issue of recording official time, and once again I 
thought I just read just the other day that your counterparts 
in the House, at least at the committee level, have adopted a 
proposal to require more transparency in that.
    So I guess the best answer is our decisions speak for 
themselves.
    Senator Lankford. OK. That is good to note. There is a lot 
more mediation that is happening now, which is a good thing. 
But that also reduces the caseload obviously since you are 
caught up at that point. There are other entities that also 
deal with relationship issues. Are there any recommendations or 
ideas that you would have to be able to combine any functions 
of what currently happens with any other agency?
    Mr. Pizzella. Well, I have often commented to my colleagues 
in jest that, if labor peace breaks out, we are no longer 
necessary.
    Senator Lankford. And so Lord come.
    Mr. Pizzella. Yes. But I do not know if there is anything 
in particular----
    Senator Lankford. Not fishing for a particular answer, by 
the way, so----
    Mr. Pizzella. Right. I would say from a generic standpoint 
that the statute that governs the Federal workforce and labor-
management disputes and all is about 38 years old now. It has 
had very little in the way of changes or tweaking in that time 
period, and like many pieces of legislation that old, it is 
probably useful for a thorough review. The world has changed. 
Just in the example of cybersecurity, the legislation was 
passed before we had cell phones and the Internet and all that. 
So it probably could be updated into the 21st Century, and I 
would encourage Congress to maybe consider that.
    Senator Lankford. All right. Good word.
    Ms. Becker, let me ask you, you and I have had this 
conversation before about civil versus criminal, that the 
preponderance of your background is civil in nature, and that 
the criminal side of it is a learning curve for you that you 
can jump into. I have no doubt based on your own mental 
aptitude that you can get up to speed on that quickly.
    How does that happen for you as you are facing your 
earliest days of criminal cases that you do not get so 
overwhelmed with the number of cases coming at you, you do not 
have time to be able to study and be well prepared for the 
issues at hand?
    Ms. Becker. Thank you, Senator. I think the best way that I 
can answer that is that I would work as hard as I possibly 
could on my own to understand the governing law and the rules 
of procedure in the courtroom, and I would seek out guidance 
and mentorship from more senior judges on the Superior Court. I 
think that any person not coming from a criminal background has 
had the same challenge, has had to get up to speed on the law 
and the procedure without sort of taking that learning curve 
out on the litigants, so to speak.
    And so I would look forward to getting their advice and 
making sure that I was as prepared as I possibly could be 
walking into the courtroom to know the law and to apply it to 
what is before me.
    Senator Lankford. OK. I am going to ask this of all three 
of the judicial nominees as well, and we will just kind of walk 
through this. And since, Ms. Wingo, you have given advice to 
the other two, we will start with you and go from there since 
they will base their comments off yours, anyway, so we will go 
from there.
    The challenge every judge has, regardless of their role, is 
setting aside your own biases, which all of us have our own 
biases from our own background and everything else, and 
applying the law equally and fairly. In Washington, D.C., that 
gets ramped up to a different volume because in front of your 
bench at any given point, you may have any ethnicity, you may 
have elected officials and unelected officials, you may have 
powerful folks downtown, and you may have folks that cannot 
find downtown. At any given time, you have this wide variety of 
individuals that are in front of you from multiple classes and 
backgrounds. To equally apply the law to all individuals is a 
tremendous challenge for you on a day-to-day basis.
    So my question is not, yes or no, will you do it, because I 
assume you are going to say yes, you will. It is how do you 
manage that personally and how do you manage that from your own 
background of making sure that the person in front of you now 
versus the person in front of you at 3 o'clock this afternoon, 
regardless of background, gets an equal application of the law. 
How do you manage that?
    Ms. Wingo. I think the place you start is by treating each 
case individually. You really have to look at each case, listen 
to the person who is before you, and then respond to that case. 
You really cannot be looking out over your courtroom and seeing 
who else is there. And when you are dealing with people as 
individuals, I think it is a much easier prospect to treat them 
without bringing any of your own experiences.
    And I do think as a judge, and particularly as a trial 
judge, you get used to doing that. There are things that you 
have to do as a trial judge when, for example, you are 
excluding evidence. You know that the evidence is out there. 
You ignore it because you have excluded it. So you really get 
used to looking and limiting yourself very carefully to what is 
on the record, what is the evidence before you, and what is the 
law.
    Senator Lankford. Mr. Berk.
    Mr. Berk. I have talked about my father, but I think I 
would like to bring him up again because he has informed so 
much of who I am. We used to go to lunch together a lot, and 
when we would go to lunch, he knew the guy who parked the car, 
and he knew the busboy, and he knew the server, and he knew the 
owner of the restaurant, always loved to know the owner of the 
restaurant. And he treated them all the same way. He asked them 
how they were doing. In some ways he treated the guy who parked 
the car better than the restaurant owner. And I guess I just 
learned at an early age that, folks are the same and you treat 
everybody the same way.
    I am the son of immigrants. I am not very far away from the 
experience of some of the people that will appear before me in 
court. And so those are sort of core values that I think I 
would bring to the bench and will always sort of be at my 
heart.
    Senator Lankford. How do you fight your own biases on that, 
not to defer to that immigrant--because you have walked that 
experience--or defer to that individual that you so closely 
relate to? Because, again, that is our natural bias. If a 
redhead comes in front of me, they are always treated---- 
[Laughter.]
    But how do you process that?
    Mr. Berk. I think, Senator, you acknowledge it. I think you 
acknowledge it to yourself, and then, to come back to it, I 
mean, we are governed by the rule of law, and we can always 
fall back on that. And in my mind, yes, sure, an immigrant, 
their story has to make sense. It has to have the ring of truth 
to it.
    So while in some instances it could be difficult, I do 
think that when you are governed by the rule of law and you are 
governed by your good judgment, you can get over those kinds of 
things?
    Senator Lankford. Ms. Becker.
    Ms. Becker. Thank you, Senator. I think the way to ensure 
that people are treated equally primarily is to apply the law 
to the facts presented in each individual case, because 
although the facts are different in each case, the law is not. 
And so the best way to ensure that people with similar facts 
are given similar treatment is to apply the law to those facts.
    I think as attorneys one of the things we are best at is 
making analogies and making distinctions. Every time we argue 
in court, we are trying to persuade the judge that our case is 
like this other case in relevant ways or is not like this other 
case in relevant ways. And I think that is just as important a 
skill for a judge, if I am making a decision that is different 
from one I made in another case with similar facts, I have to 
be able to justify, first to myself and then to the litigants 
in front of me, the reasoning for that different judgment and 
why I am ruling differently in this case than the one that came 
before. And I think that that has to be sort of a constant 
thread running through the work that you do as a judge.
    Senator Lankford. Mr. Berk, let me ask a question of you as 
well on this. What do you see are the largest or most 
significant criminal issues currently in D.C.? And as a judge, 
what can you do to be able to help in that area? I know there 
are lots of civil issues and everything else, but just focusing 
on the criminal issues, some of the most significant criminal 
issues we face in D.C., and as a judge, what is your best use 
of being able to help in that area?
    Mr. Berk. Well, I think the best thing you can do is move 
cases and not delay. There unfortunately are too many crimes 
committed, and if all these cases go to trial, they back up the 
system.
    I know Judge Sullivan is here, and I remember back in the 
day when Judge Sullivan was on the Superior Court--that was 
before he was on the Federal bench--and I know he moved his 
cases. And I think that is the best you can do as an individual 
judge.
    Senator Lankford. Ms. Becker, same question for that. Crime 
within the D.C. area, what you can do as a judge, the best 
thing to be able to help?
    Ms. Becker. So I will echo some of what Mr. Berk said. I 
think that one of the greatest challenges facing the Criminal 
Division is just that there is a high volume of cases moving 
through the system because, unfortunately, there is a lot of 
crime of various kinds here in the District of Columbia. And so 
I think the greatest challenge for a judge in that situation is 
not only moving the cases through, but while doing so making 
sure that he or she is trying to strike the right balance 
between a system that is fair to defendants but also accounts 
for the experiences of victims and, of course, the predominant 
need for community safety, because that is overall what is 
going to benefit all the residents of the District.
    Senator Lankford. Ms. Wingo, you have a unique perspective 
on this, already serving as a magistrate judge. What do you see 
as one of the most significant crime issues we are currently 
facing in D.C.? And as a judge, what is the best thing you can 
do to be able to help in that role?
    Ms. Wingo. Well, I do think that, as a judge, your role is 
to handle the cases that come before you, and so that is really 
what you do in order to address the criminal issues.
    I also think that as a judge, we have a fair number of 
resources, and one of the things that I think is quite clear 
leads to criminal activity is drug use. And utilizing those 
resources in order to help people address their problems so 
that they are not going to recidivate is one of the things that 
you can do as a judge.
    Senator Lankford. Any other tools for recidivism that you 
can use or express as a judge or ideas of things that you would 
like to bring at some point to say that this is an issue for 
this individual, this is the third time I have seen him, things 
that you can do from the bench?
    Ms. Wingo. Well, that is one of the things that you do. 
When you are trying to sentence someone, you are trying to come 
up with a sentence that will make it the least likely that they 
will appear before you again. And so it depends a little bit on 
what the kind of crime is. For example, in a traffic court, you 
are going to order traffic alcohol programs and victim impact 
panels so people understand the impact of what they did, even 
if they did not cause any harm this time, that they really 
could have killed somebody.
    When you structure your probations, that is what you try to 
do.
    Senator Lankford. I appreciate all of your answers and the 
conversation today. The only comment that I would make for 
anyone's responses is for you, Mr. Berk, on a previous question 
that was spoken to you when you mentioned when that attorney 
comes to you with the third extension and to treat him fairly, 
I would say do not. If it is a third extension---- [Laughter.]
    They just need to get their work done and bring it to you.
    Other than that, I appreciate very much what you all have 
said today and what you bring to it and the experience. I know 
this is a difficult process to go through. I am fully aware. 
You all are much more aware of the length of the process. Mr. 
Pizzella, you have been through this several times now, so I 
appreciate what this means to you and your families and such. 
So, with that, I would like to be able to move things along. 
Give me just a moment.
    [Pause.]
    Ms. Becker, Mr. Berk, Ms. Wingo, and Mr. Pizzella have 
filed responses to a biographical and financial questionnaires, 
answered prehearing questions submitted by the Committee, and 
have had financial statements reviewed by the Office of 
Government Ethics. Without objection, this information will be 
made a part of the hearing record, with the exception of the 
financial data, which is on file and available for public 
inspection in the Committee offices.
    The hearing record will remain open until 12 p.m. tomorrow, 
March 3, 2016, for the submission of statements and questions 
for the record.
    With that, unless there are any other comments, this 
hearing is adjourned. Thank you very much.
    [Whereupon, at 11:12 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  

                                [all]
</pre></body></html>
